PROOF OF SERVICE

I, Percy Allen Stucks Jr., do swear or declare that on this date, September 29,
2020, as required by Supreme Court Rule 29 I have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITIONER FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.

The names and address of those served are as follows:
1. Assistant Attorney General Jennifer J. Moore
01
PL- 10, The Capitol
Tallahassee, Florida 32399-1050
I declare under penalty of perjury that the forgoing is true and correct.
Executed on ^

I .2020.
24

/a/
vr

(Signature)

*

25

